Audit Report




OIG-11-077
RECOVERY ACT: Audit of Sierra SunTower LLC Payment Under
1603 Program
July 7, 2011




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report

  Results in Brief ............................................................................................. 1

  Background ................................................................................................. 2

  Objectives, Scope, and Methodology…………………………………………………… ... 3

  Audit Results ............................................................................................... 4

  Recommendations…………………………………………………………………………….. 6


Appendices

  Appendix     1:      Schedule of Questioned Costs.................................................. 8
  Appendix     2:      Sierra SunTower, LLC’s Response ............................................ 9
  Appendix     3:      Management’s Response ......................................................... 11
  Appendix     4:      Major Contributors to This Report ............................................. 12
  Appendix     5:      Report Distribution .................................................................. 13


Abbreviations

  eSolar                   eSolar Inc.
  NREL                     National Renewable Energy Laboratory
  OFAS                     Office of the Fiscal Assistant Secretary
  OIG                      Office of Inspector General
  Recovery Act             American Recovery and Reinvestment Act of 2009
  Sierra SunTower          Sierra SunTower, LLC
  Treasury                 Department of the Treasury
  Treas. Reg.              Treasury Regulation




                       Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)                Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General



                      July 7, 2011

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program) 1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act), 2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Sierra SunTower, LLC (Sierra SunTower) for a solar energy facility
                      in Lancaster, California. Sierra SunTower submitted a claim for
                      payment in lieu of tax credit in the amount of $19,543,649 on
                      September 18, 2009, and was awarded that amount by Treasury
                      on February 26, 2010. Our audit objectives were to assess the
                      eligibility and accuracy of that award by determining whether
                      (1) the property existed, (2) the property was placed into service
                      during the eligible timeframe, and (3) the award amount was
                      appropriate.

Results in Brief
                      We verified that the subject property described by Sierra SunTower
                      in its 1603 Program application does exist and was placed in
                      service on July 23, 2009, which was within the eligible timeframe.
                      Sierra SunTower’s reported cost basis of $65,145,499 for the
                      subject property included $117,497 for costs that we believe do
                      not comply with Treasury Regulation (Treas. Reg.) §1.263A-1.
                      Ineligible costs are as follows:



1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under section 1603 of the Recovery Act, Treasury
makes grants (payments) to eligible persons who place in service specified energy property and apply
for such payments. The purpose of the payments is to reimburse eligible applicants for a portion of the
expense of such property and are made in lieu of tax credits that could potentially be claimed by the
awardees.


                      Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)      Page 1
                           •   $80,285 for general contractor settlement
                           •   $25,856 for permit fees
                           •   $8,550 for potable water/septic sewer system labor
                           •   $2,806 for engineering labor cost

                       As a result, we are questioning $35,249 of Treasury’s 1603
                       Program award to Sierra SunTower (30 percent of $117,497). We
                       are recommending that your office (1) ensure that Sierra SunTower
                       reimburse Treasury $35,249 for the excessive 1603 Program
                       payment received and (2) direct Sierra SunTower, eSolar, and
                       affiliated companies not to include in applications for 1603
                       Program awards inappropriate or otherwise ineligible costs in the
                       claimed cost basis.

                       As part of our reporting process over 1603 Program awardees, we
                       provided Sierra SunTower management an opportunity to comment
                       on this draft report. Its comments are included in their entirety and
                       can be found in appendix 2. In brief, Sierra SunTower concurred
                       with the costs that we questioned.

                       Treasury management concurred with our recommendations and
                       will take the appropriate action to seek reimbursement from Sierra
                       SunTower in the amount of $35,249. Management’s response is
                       provided in appendix 3.

Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if a specified
                       energy property is placed in service during calendar years 2009,
                       2010, or 2011 3 and the amount awarded is in accordance with
                       provisions of the Internal Revenue Code of 1986 for determining
                       the appropriate cost basis. Under the 1603 Program, applicants
                       submit an application to Treasury that reports the total eligible cost
                       basis of a specified energy property placed in service. If approved,
                       award amounts are based on a percent of the eligible cost basis.
3
 Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
2010,” extended Treasury’s 1603 Program for one year. To be eligible, a property must be placed in
service in 2009, 2010, or 2011 or placed in service after 2011 but only if construction of the property
began during 2009, 2010 or 2011. The application deadline was extended to September 30, 2012.


                       Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)        Page 2
                        For the type of property claimed by Sierra SunTower, the
                        percentage of the cost basis eligible for award is 30 percent.
                        According to Treasury’s program guidance, the cost basis of the
                        subject property is determined in accordance with the general rules
                        for determining the cost basis of property for federal income tax
                        purposes. Specifically, for this type of property, applicants follow
                        the capitalization procedures found in Treas. Reg. §1.263A-1,
                        “Uniform Capitalization of Costs.” 4

                        Sierra SunTower

                        Sierra SunTower, LLC, wholly owned by eSolar, Inc. (eSolar), is a 5
                        megawatt solar facility located in Lancaster, California. The solar
                        facility consists of 24,000 sun-tracking heliostats that reflect solar
                        heat to thermal receivers and generates approximately 4,270
                        megawatt hours of electricity annually.

Objectives, Scope, and Methodology
                        To assess the eligibility and accuracy of the award made to Sierra
                        SunTower under the 1603 Program, we determined whether
                        (1) the property existed, (2) the property was placed into service
                        during the eligible timeframe, and (3) the award amount was
                        appropriate.

                        In performing our work, we visited Sierra SunTower’s headquarters
                        in Burbank, California, and the subject property in Lancaster,
                        California; interviewed key personnel of Sierra SunTower and
                        eSolar; reviewed the application and related documents used by
                        the Department of Energy’s National Renewable Energy Laboratory
                        (NREL); 5 and reviewed documentation used to support the costs
                        claimed by Sierra SunTower. We performed our work between
                        August 2010 and March 2011.


4
  Treas. Reg. § 1.263A-1(a)(3) (ii), Property produced: “Taxpayers that produce real property and
tangible personal property (producers) must capitalize all the direct costs of producing the property and
the property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.
5
   NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.


                        Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)            Page 3
                         Our audit was conducted in accordance with generally accepted
                         government auditing standards for performance audits. Those
                         standards require that we plan and perform an audit to obtain
                         sufficient, appropriate evidence to provide a reasonable basis for
                         our findings and conclusions based on our audit objectives. We
                         believe that the evidence obtained provides a reasonable basis for
                         our findings and conclusions based on our audit objectives.

Audit Results
                         Questioned Costs 6 in Sierra SunTower’s Claimed Cost Basis

                                          Cost Description                      Cost Basis      Notes
                          Total claimed cost basis                              $65,145,499

                          Questioned costs:
                           General contractor settlement                             $80,285    1
                           Permit fees                                               $25,856    2
                           Potable water & septic/sewer system labor cost             $8,550    3
                           Unsupported engineering labor cost                         $2,806    4
                          Total questioned cost basis                             ($117,497)

                           Recalculated cost basis                              $65,028,002
                           Recalculated award                                   $19,508,400
                           (30% of recalculated cost basis)
                           Amount awarded                                     ($19,543,649)
                           Overpayment resulting from questioned costs            ($35,249)



                         Note 1. General Contractor Settlement ($80,285 questioned cost)

                         Sierra SunTower included a general contractor settlement of
                         $80,825 in the subject property’s cost basis. eSolar contracted
                         Irwin Industries to act as its general contractor for the Sierra
                         SunTower solar facility project. As a result of contractual disputes,
                         eSolar and Irwin Industries entered into a settlement agreement in
                         November 2009, which reduced the overall project cost. However,
                         the subject property’s 1603 cost basis was not in turn reduced by
                         the settlement adjustment. Therefore, the excess cost claimed is
                         neither a direct nor allocable indirect cost of producing the property
                         and should not be included in the subject property’s cost basis.

6
    See appendix 1 for the definition of questioned costs.


                         Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)       Page 4
Sierra SunTower Response

Sierra SunTower management concurred with our finding and
agreed that the amount questioned does not belong in the cost
basis.

Note 2. Permit Fees ($25,856 questioned cost)

Sierra SunTower included in the subject property’s cost basis
permit fees of $25,856 for buildings and machinery that were
ineligible to be claimed. The permit fees are neither a direct nor
allocable indirect cost of producing the subject property and should
not be included in the subject property’s cost basis.

Sierra SunTower Response

Sierra SunTower management concurred with our finding and
agreed that the amount questioned does not belong in the cost
basis.

Note 3. Potable Water & Septic/Sewer System Labor Cost ($8,550
questioned cost)

Sierra SunTower included engineering labor cost of $8,550 in the
subject property’s cost basis for the installation of potable water
and septic/sewer systems in a building that was ineligible to be
claimed. According to management, the potable water and
septic/sewer systems were installed to provide drinking water and
support the staff restrooms in the control room building which, by
itself, is not an eligible cost. The project cost for drinking water
and restrooms is neither a direct nor allocable indirect cost of
producing the subject property. Moreover, because it was
ineligible, Sierra Sun Tower did not include the cost of the control
room building structure in the subject property’s cost basis.

Therefore, the engineering labor cost for Sierra SunTower’s potable
water and septic/sewer systems should not be included in the
subject property’s cost basis.




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 5
           Sierra SunTower Response

           Sierra SunTower management concurred with our finding and
           agreed that the amount questioned does not belong in the cost
           basis.

           Note 4. Unsupported Engineering Labor Cost ($2,806 questioned
           cost)

           Sierra SunTower included $2,806 of unsupported labor cost in the
           subject property’s cost basis. Sierra SunTower approved two
           invoices with labor hours that exceeded the engineering
           consultants’ timesheets by 31.88 hours at a rate of $88 per hour.
           No explanation or supporting documentation was provided to
           support the excess hours. Therefore, the unsupported labor cost
           should not be included in the subject property’s cost basis.

           Sierra SunTower Response

           Sierra SunTower management concurred with our findings and
           agreed that the amount questioned does not belong in the cost
           basis.

           See appendix 2 for Sierra SunTower’s response in its entirety.

Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

            1. Ensure that Sierra SunTower reimburse Treasury $35,249 for
               the excessive 1603 Program payment received for the subject
               property.

            2. Direct Sierra SunTower, eSolar, and affiliated companies not to
               include in applications for 1603 Program awards inappropriate
               or otherwise ineligible costs in the claimed cost basis.




           Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 6
Management Response

Management concurred with our recommendations and will take
the appropriate action to seek reimbursement from Sierra
SunTower in the amount of $35,249.

OIG Comment

Management’s response meets the intent of our recommendations.




                                ******

The information in this report should not be used for purposes
other than what was originally intended without prior consultation
with the Office of Inspector General regarding its applicability.
Information contained in this report may be confidential. The
restrictions of 18 U.S.C. §1905 should be considered before the
information is released to the public. We appreciate the courtesies
and cooperation provided to our staff during the audit. If you wish
to discuss this report, you may contact me at (202) 927-5400 or
Donna Joseph, Audit Director, at (202) 927-5784. Appendix 4 lists
the major contributors to this report.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 7
Appendix 1
Schedule of Questioned Costs




A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds used
to match Federal funds; (2) where the costs, at the time of the
audit, are not supported by adequate documentation; or (3) where
the costs incurred appear unreasonable and do not reflect the
actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                             Questioned Costs

Recommendation 1                                  $35,249

The questioned costs relate to excessive funds that Treasury
awarded to Sierra SunTower under the 1603 Program. The amount
questioned is 30 percent of the excessive costs included in Sierra
SunTower’s cost basis. As discussed in the audit report, the
questioned costs in the cost basis consist of four components:
(1) $80,285 for a general contractor settlement adjustment per
the settlement agreement, (2) $25,856 for permit fees related to
ineligible buildings and machinery, (3) $8,550 for engineering labor
for potable water and septic/sewer systems in an ineligible building,
and (4) $2,806 for unsupported engineering labor hours. These
costs are not a direct or indirect allocable cost to produce the
subject property.




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 8
Appendix 2
Sierra SunTower LLC’s Response




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 9
Appendix 2
Sierra SunTower LLC’s Response




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 10
Appendix 3
Management’s Response




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 11
Appendix 4
Major Contributors to This Report




Donna Joseph, Director
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Alexander Milne, Auditor
Rachael Draper, Auditor
Nicholas Slonka, Auditor
Horace Bryan, Referencer




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 12
Appendix 5
Report Distribution




Department of the Treasury

       Assistant Secretary for Management of the Treasury,
          Chief Financial Officer, and Chief Performance Officer
       Fiscal Assistant Secretary
       Deputy Chief Financial Officer
       Director, Office of Accounting and Internal Controls
       Deputy Director, Office of Performance Budgeting
       Program Manager, Office of Fiscal Assistant Secretary

Treasury Inspector General for Tax Administration

Office of Management and Budget

       OIG Budget Examiner




Audit of Sierra SunTower LLC Payment Under 1603 Program (OIG-11-077)   Page 13
